                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                 OFFICE OF INSPECTOR GENERAL




                  ADMINISTRATION OF PAYMENTS
                RECEIVED UNDER THE HELP AMERICA
                VOTE ACT BY THE SOUTH CAROLINA
                      ELECTION COMMISSION




Report No.
E-HP-SC-11-06
January 2007
                          U.S. ELECTION ASSISTANCE COMMISSION
                                 OFFICE OF INSPECTOR GENERAL
                                 1225 New York Ave. NW - Suite 1100
                                        Washington, DC 20005




                                                                          January 11, 2007

Memorandum

To:        Thomas Wilkey
           Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help
           America Vote Act by the South Carolina Election Commission (Assignment
           Number E-HP-SC-11-06)

        This report presents the results of the subject audit. The objectives of the audit
were to determine whether South Carolina (1) expended Help America Vote Act
(HAVA) payments in accordance with the Act and related administrative requirements
and (2) complied with the HAVA requirements for replacing punch card or lever voting
machines, for appropriating a 5 percent match for requirements payments, for
establishing an election fund, and for maintaining state expenditures for elections at a
level not less than expended in fiscal year 2000.

       The report concluded that South Carolina generally complied with requirements
and identified the following areas needing management attention:

        9 South Carolina did not obtain required prior approval from EAC for the
          acquisition of a vehicle with a capitalized cost of $92,506. As a result, we
          classified the $92,506 as a questioned cost

        9 Counties did not keep records that sufficiently accounted for equipment
          purchased with HAVA funds.

        9 South Carolina miscalculated the matching fund requirement, and did not
          deposit into the State election fund interest earned on the matching funds
          which it had appropriated. Consequently, South Carolina understated its
          matching fund requirement by $85,319 and owes the election fund interest
          estimated at $29,475.

        9 South Carolina was unable to provide supporting documentation to show that
          it had met its maintenance of effort requirement for activities funded by
           Section 251 payments at a level not less than expended in the state fiscal year
           ending June 30, 2000.

       In its December 22, 2006 response to the draft report (Appendix 3), South
Carolina agreed with the audit findings and indicated that corrective action was in
process. In particular, South Carolina advised that it had requested approval from the
EAC for the vehicle purchase, informed counties of the steps needed to comply with
property accountability requirements, sought further guidance from EAC on which funds
should be deposited into an interest bearing account, and started to quantify its
maintenance of effort costs.

        Please provide us with your written response to the recommendations included in
this report by March 9, 2007. Your response should contain information on actions taken
or planned, including target dates and titles of EAC officials responsible for
implementing the recommendations

       Section 5(a) of the Inspector General Act (5 U.S.C. § App.1) requires the Office
of Inspector General to list this report in its semiannual report to Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.
               BACKGROUND

               The Help America Vote Act of 2002 (HAVA or the Act) created the
HELP AMERICA   U.S. Election Assistance Commission (EAC) to assist states and
VOTE ACT       insular areas with the improvement of the administration of Federal
               elections and to provide funds to states to help implement these
               improvements. HAVA authorizes payments to states under Titles I and
               II, as follows:

                   9 Title I, Section 101 payments are for activities such as
                     complying with Title III of HAVA for uniform and
                     nondiscriminatory election technology and administration
                     requirements, improving the administration of elections for
                     Federal office, educating voters, training election officials and
                     poll workers, and developing a state plan for requirements
                     payments.

                   9 Title I, Section 102 payments are available only for the
                     replacement of punchcard and lever action voting systems.

                   9 Title II, Section 251 requirements payments are for complying
                     with Title III requirements for voting system equipment; and
                     for addressing provisional voting, voting information, statewide
                     voter registration lists, and voters who register by mail.

               Title II also requires that states must:

                   9 Have appropriated funds “equal to 5 percent of the total amount
                     to be spent for such activities [activities for which requirements
                     payments are made].” (Section 253(b)(5)).

                   9 “Maintain the expenditures of the State for activities funded by
                     the [requirements] payment at a level that is not less than the
                     level of such expenditures maintained by the State for the fiscal
                     year ending prior to November 2000.” (Section 254 (a)(7)).

                   Establish an election fund for amounts appropriated by the state
                   “for carrying out the activities for which the requirements payment
                   is made,” for the Federal requirements payments received, for
                   “such other amounts as may be appropriated under law,” and for
                   “interest earned on deposits of the fund.” (Section 254 (b) (1)).




                                       1
                          HAVA funds received and expended by South Carolina are as follows:
FUNDING FOR
SOUTH                         TYPE OF              AMOUNT                     OUTLAYS
CAROLINA                      PAYMENT             RECEIVED               AMOUNT       AS OF 1

                              101                     $4,652,412           $1,520,877       12/31/05
                              102                      2,167,518           1,998,330        12/31/05
                              251                     32,421,280           31,646,471       09/30/05

                              Totals                $39,241,210          $35,165,678


                          Within South Carolina, HAVA programs are administered by the State
FINANCIAL                 Election Commission. To account for the HAVA payments, the Act
MANAGEMENT                requires recipients to maintain records that are consistent with sound
REQUIREMENTS              accounting principles, that fully disclose the amount and disposition of
                          the payments, that identify project costs financed with the payments
                          and with other sources, and that will facilitate an effective audit.

                          In addition, EAC notified states of other management requirements.
                          Specifically, that states must:

                              9 Comply with the Uniform Administrative Requirements for
                                Grants and Cooperative Agreements with State and Local
                                Governments (also known as the “Common Rule”).

                              9 Expend payments in accordance with Cost Principles for State,
                                Local and Indian Tribal Governments. These Principles
                                establish the allowability or unallowability of certain items of
                                cost for federal participation and were issued by the Office of
                                Management and Budget (OMB) in Circular A-87.

                              9 Submit annual financial reports on the use of Title I and Title II
                                payments.

                          The objectives of our audit were to determine whether South Carolina
OBJECTIVE                 (1) expended HAVA payments in accordance with the Act and related
                          administrative requirements and (2) complied with the HAVA
                          requirements for replacing punch card or lever voting machines, for
                          establishing an election fund, for appropriating a 5 percent match for
                          requirements payments, and for maintaining state expenditures for
                          elections at a level not less than expended in fiscal year 2000.


1
 EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251
funds. For Sections 101 and 102, reports are due on February 28 for the activities of the previous calendar
year. For Section 251, reports are due by March 30 for the activities of the previous fiscal year ending on
September 30.



                                                     2
          Specifically, we audited claimed expenditures from July 1, 2003
          through December 31, 2005, and reviewed controls to assess their
          adequacy over the expenditure of HAVA funds. We also evaluated
          compliance with certain administrative requirements for the following
          activities:

             9 Accumulating financial information reported to EAC on the
               Financial Status Reports (Standard Forms number 269).
             9 Accounting for property.
             9 Purchasing goods and services.
             9 Accounting for salaries.
             9 Charging indirect costs.
             9 Spending by counties.

          We also determined whether South Carolina had complied with the
          requirements in HAVA applicable to Section 251 requirements
          payments for:

             9 Establishing and maintaining the election fund.
             9 Appropriating funds equal to five percent of the amount
               necessary for carrying out activities financed with Section 251
               requirements payments.
             9 Sustaining the State’s level of expenditures for elections.



          RESULTS OF AUDIT

          We concluded that South Carolina generally administered funds in
SUMMARY   accordance with financial management requirements. However, it did
          not obtain required prior approval from EAC for the acquisition of a
          vehicle with a capitalized cost of $92,506 or make sure that counties
          kept required property records of equipment purchased with HAVA-
          funds. As a result, we classified the $92,506 as a questioned cost and
          determined that county property records did not contain all required
          management information.

          Regarding the compliance requirements associated with Section 251
          payments, we found that South Carolina properly established a State
          election fund. On the other hand, we found that it miscalculated the
          matching fund requirement, and did not deposit into the State election
          fund interest earned on the matching funds which it had appropriated.
          Consequently, South Carolina understated its matching fund
          requirement by $85,319 and owes the election fund interest estimated
          at $29,475. Finally, we were not able to determine whether South
          Carolina satisfied the maintenance of effort requirement because it did



                                3
             not identify its base-year level of effort or subsequent years spending
             of state funds pertaining to Section 251-type activities.


             South Carolina used HAVA funds to purchase and outfit a bus to serve
QUESTIONED   as a mobile training unit to educate voters on the new voting system
EQUIPMENT    and regulations. South Carolina capitalized the bus as a $92,506 item
COSTS        in its equipment inventory. The $92,506 consists of the purchase price
             of $63,900 plus outfitting costs of $28,606. We questioned the costs of
             $92,506 because South Carolina did not obtain prior approval from
             EAC, as required by OMB Circular A-87, before purchasing the bus.
             Specifically, Attachment B to Circular A-87, Part 15, requires that
             agencies receive advance approval for the purchase of general purpose
             equipment or special purpose equipment with a unit cost of $5,000 or
             more.

             During our audit, the State Election Commission requested from EAC
             approval for the bus purchase.

             Recommendation:
               1. We recommend that EAC resolve the questioned costs of
                  $92,506.
             South Carolina Response:
             South Carolina stated that it is awaiting a response from EAC to a
             September 1, 2006 request for retroactive approval of the vehicle
             purchase.

             The standards specify that property records must be maintained that
PROPERTY     include a description of the property; a serial number or other
             identification number; the source of property; who holds the title; the
             acquisition date; cost of the property; percentage of Federal
             participation in the cost of the property; the location, use and condition
             of the property; and any ultimate disposition data including the date of
             disposal and sale price of the property. Although the counties
             maintained a list of voting machines with serial numbers, they did not
             keep other required information necessary to adequately manage
             property. State Election Commission officials told us that they were
             not aware of the Federal requirements, and thus did not pass them on to
             the counties.

             Recommendation:

               2. We recommend that the EAC ensure that the South Carolina
                  State Election Commission requires all counties to comply with
                  the Federal equipment management requirements.



                                    4
           South Carolina Response:

           South Carolina advised that it has informed the counties of the
           requirements for property records and that it requested county directors
           to certify that the county is in compliance with the federal
           requirements.

           OIG Comments:

           The State procedures should also include a means to verify the
           accuracy of the certifications. This could be done on a test basis.


           South Carolina (a) understated its matching contribution by
MATCHING   approximately $85,319 and (b) did not deposit its matching funds into
           the State’s election fund, resulting in lost interest of $29,475.

           As a condition to receiving requirements payments, Section 253 (b)(5)
           of HAVA requires states to have:

                  . . . appropriated funds for carrying out the activities for
                  which the requirements payment is made in an amount
                  equal to 5 percent of the total amount to be spent for
                  such activities (taking into account the requirements
                  payment and the amount spent by the State) . . .

           South Carolina understated its matching funds because it miscalculated
           its matching requirement. In doing so, it applied the 5 percent to only
           the Federal payment of $32,421,280. This resulted in South Carolina
           appropriating $1.6 million. The correct calculation is to first divide the
           Federal payment by 95 percent to determine the total federal and state
           funds of $34,127,663. Then, to arrive at the state match, deduct the
           Federal payment ($32,421,280) from the total funds. This results in a
           state matching requirement of $1,706,383, or $85,319 more that the
           state actually appropriated.

           HAVA, in Section 254 (b)(1), also requires states to deposit the funds
           appropriated to match the requirements payment into a state election
           fund, described as follows:

                  . . . a fund which is established in the treasury of the
                  State government, which is used in accordance with
                  paragraph (2), and which consists of the following
                  amounts:
                         (A) Amounts appropriated or otherwise made
                             available by the State for carrying out the



                                  5
                                activities for which the requirements
                                payment is made to the State under this
                                part.
                            (B) The requirements payment made to the
                                State under this part.
                            (C) Such other amounts as may be
                                appropriated under law.
                            (D) Interest earned on deposits of the fund.

              We found that South Carolina did not, however, deposit the $1.6
              million that it had appropriated into its election fund. This occurred
              because state officials were not aware of the requirement to deposit
              matching funds into the state election fund. As a result, South Carolina
              lost interest that it would have earned had it deposited its full matching
              fund requirement into the state fund. We estimated that the election
              fund earned interest at an annual rate of approximately 3 percent.
              Using the 3 percent interest rate, we computed lost interest to be about
              $29,475.

              Recommendation:

                3. We recommend that the EAC require the South Carolina State
                   Election Commission to deposit state funds of $114,794
                   ($85,319 under match plus interest of $29,475) into the state
                   election fund.


              South Carolina Response:

              South Carolina replied that appropriated funds are available to provide
              the full match and the forgone interest. The response also said that the
              Assistant Treasurer for South Carolina requested clarification on the
              HAVA requirement for depositing state matching funds and related
              interest into the election fund. To respond to the Assistant Treasurer’s
              request, South Carolina requested guidance for EAC on November 9,
              2006 and stated that it would “proceed with the matter based on the
              response we receive.”

              South Carolina’s State Plan did not identify the amount of state funds
MAINTENANCE   expended in the base year (State fiscal year 2000) for activities funded
OF EFFORT     by Section 251 requirements payments. In addition, the Plan did not
              indicate how the State would maintain its expenditures at or above that
              base-year level in subsequent fiscal years.

              HAVA Section 254 (a)(7) specifies that a state plan must describe how
              the state, in using Section 251 requirements payments, will “maintain




                                     6
the expenditures of the State for activities funded by the payment at a
level that is not less than the level of such expenditures maintained by
the State for the fiscal year ending prior to November 2000.”

South Carolina’s State Plan says that “in using any requirements
payment, South Carolina will maintain expenditure of the State for
activities funded by the payment at a level equal or greater than the
level of such expenditures in State Fiscal Year 2000.” However, we
found that South Carolina did not have a process to identify state
expenditures for Section 251-type activities.

As a result, South Carolina had not determined the appropriate state
expenditures in the base year or the qualifying expenditures in
subsequent years. As such, we could not verify that South Carolina
complied with the maintenance of effort requirement.

Recommendations:

We recommend that EAC:

  4. Require South Carolina to identify its base year expenditures for
     activities related to HAVA Section 251 requirements payments,
     and the annual expenditures for these activities for subsequent
     fiscal years.

  5. Identify any appropriate actions to be taken based on the
      information submitted by South Carolina.

South Carolina Response:

South Carolina replied that its understanding of the maintenance of
effort “was that we were not to use federal funds to pay for any items
that were not previously funded with the federal funds. Special care
has been taken to ensure that no HAVA funds have been used to fund
prior commitments or any items not specifically relevant to HAVA.”
The response also said that South Carolina was “in the process of
determining the actual dollar amount and will submit that figure to
your office when it has been determined.”




                       7
                                                   APPENDIX 1

SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed:

9 The prior single audit report and other reviews related to the State’s
  financial management systems and the HAVA program for the last
  2 years.
9 Policies, procedures and regulations for the State’s management
  and accounting systems as they relate to the administration of
  HAVA programs.
9 Inventory lists of equipment purchased with HAVA funds.
9 Major purchases.
9 Supporting documents maintained in the accounting system for
  payments made with HAVA funds.
9 Certain South Carolina laws that impacted the election fund.
9 Appropriations and expenditure reports for State funds used to
  maintain the level of expenses for elections at least equal to the
  amount expended in fiscal year 2000 and to meet the five percent
  matching requirement for section 251 requirements payments.
9 Information regarding source/supporting documents kept for
  maintenance of effort and matching contributions.
We also interviewed appropriate Election Commission employees
about the organization and operation of the HAVA program.

We conducted our review in accordance with Government Auditing
Standards issued by the Comptroller General of the United States. As
such, we included tests and procedures as considered necessary under
the circumstances to evaluate the Division’s controls over the
administration of HAVA payments. Because of inherent limitations, a
study and evaluation made for the limited purposes of our review
would not necessarily disclose all weaknesses in administering HAVA
payments.




                      8
                                                APPENDIX 2

          MONETARY IMPACT

                    Questioned    Additional Funds
      Description     Costs         for Program

Bus                     $92,506

Matching:
  Under match                            $ 85,319
  Interest                                 29,475

Totals                  $92,506          $114,794




                        9
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
